i
TABLE OF APPENDICES
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit (July
30, 2020) ..................................................................1a
Order Granting in Part Defendant’s Motion to
Dismiss and Dismissing Plaintiff ’s Claims
Without Prejudice of the United States District Court for the Eastern District of Washington (March 28, 2019) ..........................................7a

1a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DALE L. MIESEN, an individual who is a shareholder and
who is also bringing this action
on behalf of and/or in the right
of AIA Services Corporation
and its wholly owned
subsidiary AIA Insurance, Inc.,

No. 19-35255
D.C. No. 2:18-cv00270-RMP
MEMORANDUM*
(Filed Jul. 30, 2020)

Plaintiff-Appellant,
v.
JOHN D. MUNDING, married
individual and the community
property comprised thereof;
et al.,
Defendants-Appellees,
and
AIA SERVICES CORPORATION, an Idaho corporation;
AIA INSURANCE, INC.,
an Idaho corporation,
Defendants.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

2a
Appeal from the United States District Court for
the Eastern District of Washington
Rosanna Malouf Peterson, District Judge, Presiding
Submitted July 9, 2020**
Seattle, Washington
Before: FERNANDEZ and NGUYEN, Circuit Judges,
and BOLTON,*** District Judge.
Plaintiff-Appellant Dale L. Miesen (“Mr. Miesen”)
is a minority shareholder of AIA Services Corporation
(“AIA Services”) seeking to assert claims related to legal malpractice against Defendant-Appellee John D.
Munding (“Mr. Munding”) in a derivative capacity on
behalf of AIA Services and in a “double derivative” capacity on behalf of AIA Services’ wholly owned subsidiary, AIA Insurance, Inc. (“AIA Insurance”). The district
court dismissed Mr. Miesen’s claims without prejudice
and denied leave to amend after concluding that (1) it
lacked subject-matter jurisdiction and (2) Mr. Miesen’s
two demand letters were insufficient under Federal
Rule of Civil Procedure 23.1. Mr. Miesen appeals. We
have jurisdiction under 28 U.S.C. § 1291, and we affirm. Although the district court erred in concluding it
lacked subject-matter jurisdiction, it correctly dismissed the Amended Complaint without prejudice and

** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*** The Honorable Susan R. Bolton, United States District
Judge for the District of Arizona, sitting by delegation.

3a
without leave to amend based on the insufficiency of
the Rule 23.1 demand letters.
1. Diversity jurisdiction exists where an action is
between “citizens of different States” and “the matter
in controversy exceeds the sum or value of $75,000, exclusive of interest and costs.”1 28 U.S.C. § 1332(a). Section 1332 requires “‘complete diversity’ of citizenship,
meaning that ‘the citizenship of each plaintiff is diverse from the citizenship of each defendant.’” Demarest v. HSBC Bank USA, N.A., 920 F.3d 1223, 1226
(9th Cir. 2019) (quoting Caterpillar Inc. v. Lewis, 519
U.S. 61, 68 (1996)).
Complete diversity exists whether AIA Services
and AIA Insurance (collectively, “AIA Entities”) are
aligned as plaintiffs or defendants. Mr. Miesen is a citizen of Texas. Mr. Munding, his wife, and his law firm
are citizens of Washington. The AIA Entities are citizens of Idaho. Mr. Munding argues that because the
Amended Complaint “designated [the AIA Entities] as
plaintiffs and defendants,” and because both AIA Entities are Idaho citizens, diversity jurisdiction is “destroy[ed].” But subject-matter jurisdiction is not
destroyed because a corporation is listed on both sides
of the caption in a derivative action. See, e.g., Arduini
v. Hart, 774 F.3d 622 (9th Cir. 2014) (case proceeded in
diversity where corporation named on both sides); Rosenbloom v. Pyott, 765 F.3d 1137 (9th Cir. 2014) (same);
Larson v. Dumke, 900 F.2d 1363 (9th Cir. 1990) (same).
1

The parties do not dispute that the amount-in-controversy
requirement is met.

4a
Mr. Munding cites no authority requiring a district
court to determine party alignment where diversity of
citizenship exists regardless of alignment. Because the
parties are completely diverse regardless of alignment,
and the amount-in-controversy requirement is undisputedly met, the district court had subject-matter jurisdiction.
2. District court determinations regarding the
demand requirement for derivative actions are reviewed for abuse of discretion. Potter v. Hughes, 546
F.3d 1051, 1056 (9th Cir. 2008). “A district court abuses
its discretion when it applies an incorrect rule of decision, or when it applies the correct rule to factual conclusions that are ‘illogical, implausible, or without
support in the record.’” Stetson v. Grissom, 821 F.3d
1157, 1163 (9th Cir. 2016) (quoting Rodriguez v. Disner,
688 F.3d 645, 653 (9th Cir. 2012)). Conclusions of law
are reviewed de novo. Id.
In his Amended Complaint, Mr. Miesen included
excerpts of the two demand letters he sent to the
boards of the AIA Entities. The Federal Rules of Civil
Procedure required Mr. Miesen to “state with particularity . . . any effort . . . to obtain the desired action
from the directors” and to establish that this demand
was “adequate” under applicable state law. Fed. R. Civ.
P. 23.1(b); Potter, 546 F.3d at 1055 (citing Fed. R. Civ. P.
23.1). Applicable state law required Mr. Miesen to
make a “written demand . . . upon the corporation to
take suitable action.” Idaho Code § 30-29-742.

5a
The district court correctly concluded that Mr.
Miesen’s letters, as excerpted in the Amended Complaint, did not make an adequate demand on the
boards because it did not sufficiently describe the action he sought to have the boards take. Mr. Miesen’s
excerpted letters described his proposed claims in
terms of “all possible claims” or similarly generic, conclusory language. The letters failed to describe with
particularity the claims for relief he sought or the factual bases for those claims. Such language cannot have
been expected to provide the boards with enough information to take “suitable action.” Without knowing the
factual bases for the claims, the boards could not determine the likelihood of the lawsuit’s success and
would have had difficulty weighing factors like the expenses involved in litigation or whether litigation
would further the AIA Entities’ general business interests. These are considerations the boards were entitled
to make. See Daily Income Fund, Inc. v. Fox, 464 U.S.
523, 533 & n.9 (1984). The district court did not abuse
its discretion by dismissing Mr. Miesen’s Amended
Complaint for failure to meet Rule 23.1’s pleading requirements.
3. A district court’s denial of leave to amend is
reviewed for abuse of discretion. Gonzalez v. Planned
Parenthood of Los Angeles, 759 F.3d 1112, 1114 (9th
Cir. 2014). After a party has amended a pleading once
as a matter of course, the Federal Rules of Civil Procedure permit the party to further amend “only with the
opposing party’s written consent or the court’s leave.”
Fed. R. Civ. P. 15(a)(2); Eminence Capital, LLC v.

6a
Aspeon, Inc., 316 F.3d 1048, 1051 (9th Cir. 2003). Leave
should be “freely give[n] . . . when justice so requires.”
Fed. R. Civ. P. 15(a)(2).
Here, amendment would have been futile. Mr.
Miesen suggests that were he given leave to amend, he
would “quote the entire letters or attach the letters to
his amended complaint.” But the omitted portions of
the letters are no more specific, nor any more relevant,
than the excerpts included in the Amended Complaint.
Because amendment could not have cured the deficiencies of the Amended Complaint, the district court did
not abuse its discretion by denying Mr. Miesen’s request for leave to amend.
AFFIRMED.

7a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
DALE L. MIESEN, an individual who is a shareholder
and who is also bringing this
action on behalf of and/or in
the right of AIA Services
Corporation and its wholly
owned subsidiary, AIA
Insurance Inc.,
Plaintiff,
v.

No. 2:18-CV-270-RMP
ORDER GRANTING
IN PART DEFENDANT’S MOTION
TO DISMISS AND
DISMISSING
PLAINTIFF’S
CLAIMS WITHOUT
PREJUDICE
(Filed Mar. 28, 2019)

JOHN D. MUNDING and
KAREN MUNDING, married
individuals and the community property comprised
thereof; JOHN or JANE
DOES 1-111, unknown individuals; MUNDING PS, a
Washington professional services corporation; CRUMB &
MUNDING PS, a Washington
professional services corporation; AIA SERVICES
CORPORATION, an Idaho
corporation; and AIA
INSURANCE INC.,
an Idaho corporation,
Defendants.

8a
BEFORE THE COURT is a motion by Defendants
John Munding, Karen Munding, Munding P.S., and
Crumb and Munding P.S., the latter two Defendants
being firms in which Mr. Munding is allegedly a shareholder (collectively the “Munding Defendants”), ECF
No. 19. Also before the Court is Plaintiff Dale Miesen’s
motion to strike certain documents in the record, ECF
No. 22. The Court heard oral argument from the parties, at which Roderick Bond appeared for Plaintiff and
James King and Markus Louvier appeared for the
Munding Defendants, and reviewed all briefing submitted by the parties as well as relevant authority. See
ECF Nos. 19, 20, 22, 23, 24, 27, 28, and 30. Consequently, the Court is fully informed.
BACKGROUND
Plaintiff Mr. Miesen is a minority shareholder of
AIA Services Corporation (“AIA Services”). ECF No. 10
at 8, 10–11, 20. Defendant Mr. Munding is an attorney
based in Spokane, Washington, who represented AIA
Services and AIA Insurance, Inc. (collectively the “AIA
Entities”) in litigation in California. Id. at 37–38, 40,
43. Through his amended complaint, Mr. Miesen seeks
to sue the Munding Defendants for legal malpractice
in a derivative capacity on behalf of AIA Services and
in a “double derivative” capacity on behalf of AIA Insurance, which Mr. Miesen alleges is a fully owned subsidiary of AIA Services. Id. at 4–5, 7–10; see also ECF
No. 23 at 10–11. He also names as Defendants John or
Jane Does I-III, “individuals, attorneys practicing law
in . . . Washington [who] . . . along with John D.

9a
Munding, also provided legal services and/or Crumb &
Munding, P.S.[,]” and the AIA Entities. ECF No. 1 at 6–
8.
Plaintiff brings the following claims against “Defendants,” without excluding any Defendant from the
collective: breaches of fiduciary duties (Count 1); fraudulent concealment (Count 2); aiding and abetting in
other parties’ breaches of fiduciary duties and fraud
(Count 3); legal malpractice (Count 4); violations of
Washington Consumer Protection Act (Count 5); and
declaratory judgment (Count 6). ECF No. 10.
Plaintiff alleges that, prior to Mr. Munding’s representation of the AIA Entities, AIA Insurance seated
an improperly elected board of directors. ECF No. 10
at 13. Subsequently, the AIA Entities secured lines of
credit ultimately totaling $10,000,000.00 from a “hard
money” lender, GemCap Lending I, LLC (“GemCap”).
Id. at 14–15. When the loans went unpaid, GemCap
sued the AIA Entities, and the AIA Entities hired Mr.
Munding to represent them in that litigation. See id.
at 17. That litigation resulted in entry of a judgment
against AIA Entities “in excess of $12,000,000” pursuant to a settlement agreement. Id. at 23. Plaintiff asserts that Mr. Munding, in the course of his
representation of the AIA Entities, committed malpractice, acted despite a conflict of interest, and
breached fiduciary duties owed to the AIA Entities, including affirmative duties to disclose information to
shareholders, and “aided and abetted” AIA Entities officers in breaching fiduciary duties. Id. at 5–60.

10a
Plaintiff characterizes this action as “a classic example of an attorney who placed his interests in earning fees above the interests of two of his clients, the
AIA Entities, thereby committing numerous torts and
violating numerous Rules of Professional Conduct
(‘RPC’).” ECF No. 23 at 4 (underlining in original).
Plaintiff summarizes the factual basis for his claims as
follows:
[T]he Defendants undertook to impermissibly
represent the AIA Entities and other defendants when AIA Services and AIA Insurance
(collectively herein the ‘AIA Entities’) had
materially adverse interests to those of the
Defendants’ other clients and with full
knowledge that the AIA Entities were being
improperly operated. Rather than seeking to
extricate the AIA Entities from any indebtedness under their unauthorized and illegal
guarantees, the Defendants ignored their duties owed to the AIA Entities and allowed
John Taylor to enter into an unauthorized and
illegal Settlement Agreement, which was concealed from the AIA Entities and their shareholders.
ECF No. 23 at 4–5 (internal citations to Amended Complaint omitted).
MOTION TO STRIKE
As a preliminary matter, during oral argument the
Court denied as moot Plaintiff ’s request to strike a
declaration and exhibit that Defendants had filed

11a
contemporaneously with their motion to dismiss Plaintiff ’s initial complaint, ECF Nos. 8 and 9. The Court
found the issue moot after Plaintiff filed his First
Amended Complaint. See ECF No. 26. Those documents are not part of the record concerning Defendants’ instant motion to dismiss Plaintiff ’s amended
complaint.
Plaintiff also seeks to strike the “Declaration of
John Munding,” and attached exhibits, submitted by
Defendants in support of their motion to dismiss, as
well as portions of the motion to dismiss itself. ECF
Nos. 19, 20, and 22.
In resolving a motion to dismiss under Federal
Rule of Civil Procedure 12(b)(6), a court normally confines its review to the complaint and does not consider
extrinsic materials such as facts presented in briefs,
affidavits, or discovery materials. In re American Continental Corp./Lincoln Sav. & Loan Securities, Litig.,
102 F.3d 1524, 1537 (9th Cir. 1996), reversed on other
grounds sub nom Lexecon, Inc. v. Milberg Weiss Bershad Hynes & Lerach, 523 U.S. 26 (1998). Under Rule
12(d), subject to two exceptions set forth below, if “matters outside the pleadings are presented to and not excluded by the court,” the Court must convert the
motion to dismiss under Rule 12(b)(6) into a motion for
summary judgment under Rule 56 and give “[a]ll parties . . . a reasonable opportunity to present all the material that is pertinent to the motion.” Fed. R. Civ. P.
12(d).

12a
It is proper for a court to consider exhibits submitted with the complaint and documents whose contents
are alleged in the complaint when their authenticity is
not questioned. Lee v. City of Los Angeles, 250 F.3d 668,
688 (9th Cir. 2001); see also Tellabs, Inc. v. Makor Issues
& Rights, Ltd., 551 U.S. 308 (2007). In addition, a court
may take judicial notice under Federal Rule of Evidence 201 of “matters of public record” without converting a motion to dismiss into a motion for summary
judgment. Lee, 250 F.3d at 689. Court documents already in the public record and documents filed in other
courts are appropriate subjects of judicial notice. Anderson v. Holder, 673 F.3d 1089, 1094 n. 1 (9th Cir.
2012). However, a court may not take judicial notice of
a fact that is “subject to reasonable dispute.” Lee, 250
F.3d at 689.
Declaration of Plaintiff Mr. Munding
Defendants assert that the Court may consider
Mr. Munding’s declaration, ECF No. 20, in resolving
the instant motion to dismiss because the declaration
is “integral” to the claims raised by Plaintiff in the
amended complaint. ECF No. 27 at 9.
Although Mr. Munding’s declaration adds detail
and his own perspective regarding events referred to
in Plaintiff ’s amended complaint, the contents of his
declaration are not alleged in the amended complaint.
In addition, the Court cannot take judicial notice of the
statements in the declaration because the accuracy of
Mr. Munding’s statements cannot be characterized as

13a
beyond dispute. Therefore, the Court cannot consider
the declaration without converting the motion to dismiss into a motion for summary judgment, which it declines to do. Fed. R. Civ. P. 12(d). Therefore, the
declaration is stricken.
Copy of California docket
Plaintiff objects to the Court taking judicial notice
of the portions of the docket that Defendants submitted at Exhibit A, ECF No. 20-1, arguing that the entire
docket should be submitted rather than a portion. ECF
No. 22 at 10. Plaintiff also disputes that the docket verifies the issuance of a final judgment in the Central
District of California litigation, the purpose for which
Defendants submitted it. Id.
Defendants maintain that the exhibit is admissible and argue that Plaintiff does not adequately expand upon any assertion that the exhibit is
inauthentic, inaccurate, or inadmissible. ECF No. 27 at
10. As provided by Federal Rule of Evidence 106, “[i]f a
party introduces all or part of a writing . . . , an adverse
party may require the introduction . . . of any other
part . . . that in fairness ought to be considered at the
same time.” The Court agrees that the partial copy of
the docket from the Central District of California is inappropriate to consider at this time. Therefore, the
Court strikes ECF No. 20-1 from the docket and does
not consider it for purposes of resolving Defendants’
motion to dismiss.

14a
Copy of September 6, 2013 email from Plaintiff ’s
counsel Mr. Bond regarding intervention in the California litigation; copy of minutes from California litigation; copy of August 13, 2014 email from Mr. Bond;
and copy of January 13, 2016 email from Mr. Bond
With respect to the remaining attachments to Mr.
Munding’s declaration, ECF Nos. 20-2 through 20-5,
Plaintiff disputes the authenticity and/or the admissibility of the documents and maintains that they should
not be considered unless the motion to dismiss is converted into a summary judgment motion under Rule
12(d). Defendants argue that the documents are admissible on various grounds and posit that Plaintiff
“does not explain to this Court why” he disputes the
authenticity, accuracy, and admissibility of the attached exhibits. The Court concludes that the appropriate approach, short of converting Defendants’
motion to dismiss into a motion for summary judgment, is to strike the exhibits at ECF Nos. 20-2, 20-3,
20-4, and 20-5 for falling outside of the narrow exceptions to Rule 12(d). Therefore, the Court does not consider the exhibits for purposes of resolving Defendants’
motion to dismiss.
Portions of Defendants’ motion to dismiss
Plaintiff argues that the Court should strike portions of Defendants’ briefing that: “(1) is unsupported
by authority; (2) exceeds the briefing page limits without having obtained prior approval; and (3) relies upon
matters outside of the pleadings.” ECF No. 22 at 10.

15a
Defendants’ motion to dismiss exceeded the allowable
page limit by one page. LCivR 7(f ); see ECF No. 19 (21page memorandum). The Court has discretion in deciding what it will consider in overlength briefs, and will
not strike Defendants’ motion to dismiss on the basis
of submitting one page over the briefing length.
Plaintiff further argues that the portion of Defendants’ motion arguing for application of res judicata
should be stricken because Defendants rely on briefing
submitted in litigation in the United States District
Court, District of Idaho, submitted with Defendants’
first motion to dismiss, and, therefore, allegedly “assert
an additional 22 pages of briefing.” ECF No. 22 at 9
(referring to ECF No. 8-15). The Court also declines to
strike any portion of Defendants’ motion on this basis.
However, the Court will not consider the exhibit submitted at ECF No. 8-15 as part of the record for the
current motion because it was submitted in support of
Defendants’ first motion to dismiss, which, as discussed above, the Court already denied as moot, so it
is not part of the current record. See ECF No. 26.
Therefore, the Court grants in part, denies in part,
and denies as moot in part Plaintiff ’s motion to strike
as set forth above.
MOTION TO DISMISS
The Munding Defendants move to dismiss Plaintiff ’s amended complaint on the grounds that: (1)
Plaintiff states insufficient facts alleging antagonism
to support aligning the AIA Entities solely as

16a
Defendants in this action, thereby failing to establish
diversity jurisdiction; (2) the amended complaint includes an inadequate demand under Federal Rule of
Civil Procedure 23.1; (3) the doctrine of res judicata
precludes the instant lawsuit, based on Plaintiff ’s alleged failure to timely intervene in the California litigation; (4) the relevant statute of limitations, whether
from Idaho, Washington, or California, bars any of
Plaintiff ’s claims stating legal malpractice because
Plaintiff instituted this action more than three years
after the relevant judgment in the California litigation; and (5) Plaintiff deficiently pleaded his unfair or
deceptive act or practice claim under the Washington
Consumer Protection Act. ECF Nos. 19 and 28.
Legal Standards
Defendants move to dismiss Plaintiff ’s amended
complaint “pursuant to Fed. R. Civ. P. 12(b)(1), (3), (6),
and 23.1[.]” ECF No. 19 at 2. “A pleading that states a
claim for relief must contain . . . a short and plain
statement of the claim showing that the pleader is entitled to relief. . . . .” Fed. R. Civ. P. 8(a)(2). A derivative
complaint must “state with particularity”:
(A) any effort by the plaintiff to obtain the desired action from the directors or comparable authority and, if necessary, from the
shareholders or members; and
(B) the reasons for not obtaining the action or
not making the effort.
Fed. R. Civ. P. 23.1(b)(3).

17a
Federal Rule of Civil Procedure 12(b)(6) provides
for dismissal when a complaint “fail[s] to state a claim
upon which relief can be granted.” Fed. R. Civ. P.
12(b)(6). To survive a Rule 12(b)(6) motion, “a complaint must contain sufficient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on its
face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (internal citation omitted).
“All allegations of material fact in the complaint
are taken as true and construed in the light most favorable to the plaintiff.” Williams v. Gerber Prods. Co.,
552 F.3d 934, 937 (9th Cir. 2008). However, “[t]hreadbare recitals of the elements of a cause of action, supported by mere conclusory statements, do not suffice”
and need not be accepted as true. Iqbal, 556 U.S. at 679
(“Rule 8 marks a notable and generous departure from
the hypertechnical code-pleading regime of a prior era,
but it does not unlock the doors of discovery for a plaintiff armed with nothing more than conclusions.”).
Under Federal Rule of Civil Procedure 12(b)(1), a
defendant may challenge the plaintiff ’s jurisdictional
allegations through either a “facial” or “factual” attack.
Safe Air for Everyone v. Meyer, 373 F.3d 1035, 1039 (9th
Cir. 2004). A district court resolves a facial attack as it
would a motion to dismiss under Rule 12(b)(6), accepting plaintiff ’s allegations as true and drawing reasonable inferences in plaintiff ’s favor, to determine
whether plaintiff ’s allegations are sufficient as a matter of law to establish jurisdiction. Pride v. Correa, 719
F.3d 1130, 1133 (9th Cir. 2013). When a defendant instead raises a factual attack, contesting the truth of

18a
plaintiff ’s allegations, the court often looks to evidence
outside of the pleadings. Safe Air for Everyone, 373
F.3d at 1039. In any case, the party asserting subject
matter jurisdiction bears the burden of proving its existence. Robinson v. United States, 586 F.3d 683, 685
(9th Cir. 2009).
Rule 23.1 Notice
Rule 23.1 provides the pleading standard for derivative actions in federal court, requiring “any effort
by the plaintiff to obtain the desired action from the
directors or comparable authority and, if necessary,
from the shareholders or members” to be stated with
particularity. See Potter v. Hughes, 546 F.3d 1051, 1056
(9th Cir. 2008). However, the substantive rules for determining whether a plaintiff has satisfied that standard, and whether a pre-litigation demand should be
excused for futility, are a matter of state law. Rosenbloom v. Pyott, 765 F.3d 1137, 1148 (9th Cir. 2014); see
also Erie R.R. Co. v. Tompkins, 304 U.S. 64, 78 (1938).
District courts must follow the substantive law, including choice-of-law rules, of the forum state. Klaxon Co.
v. Stentor Elec. Mfg. Co., 313 U.S. 487, 496 (1941). In
Washington State, “[s]hareholder claims involving a
corporation’s internal affairs are governed by the law
of the state in which the corporation was incorporated.”
Rodriguez v. Loudeye Corp., 144 Wn. App. 709, 718
(Wash. Ct. App., Div. 1, 2008). Consequently, this Court
must follow Idaho law, because the AIA Entities are incorporated under Idaho law according to the amended
complaint. ECF No. 10 at 7–8.

19a
Idaho law does not recognize a futility exception to
the demand requirement. Kugler v. Nelson, 160 Idaho
408, 415 (Idaho 2016). Rather “[n]o shareholder may
commence a derivative proceeding until”:
(1) A written demand has been made upon
the corporation to take suitable action;
and
(2) Ninety (90) days have expired from the
date the demand was made unless the
shareholder has earlier been notified that
the demand has been rejected by the corporation or unless irreparable injury to
the corporation would result by waiting
for the expiration of the ninety (90) day
period.
Idaho Code § 30-29-742.
Plaintiff ’s amended complaint recites that Plaintiff provided a “comprehensive written demand” to the
“purported boards of directors of AIA Services and AIA
Insurance” that the AIA Entities:
[p]ursue all possible claims and defenses, and
seek the maximum damages, against . . . any
other party or entity named in this derivative
demand, including, without limitation, all
possible tort claims (including, without limitation, aiding and abetting in the commission
of torts against AIA), contract claims, declaratory relief, injunctive relief, and punitive
damages based on all acts, omissions, concealments, and failure to disclose through the
date of this letter and for the foregoing which

20a
continues past the date of this letter. Without
limiting the foregoing and so there is no confusion (even though you are well aware of the
facts, lawsuits and legal issues as having full
access to information at AIA and the [sic]
most of the Combined Defendants), more specific examples are included below and demand
is hereby made to take action against those
parties and any of the other Combined Defendants to recover damages based on any of
such specific examples.
...
[p]ursue all possible claims against . . . any
other persons or entities named in this derivative demand requiring them to disclose any
and all agreements, deeds, deeds of trust,
mortgages, settlements, settlement agreements and/or other instruments, whether oral
or written, with GemCap or any of its agents
or assigns, including, without limitation, any
agreements and instruments relating in any
way to any sums and/or property owed, borrowed, transferred and/or pledged or promised to GemCap[.]
...
[p]ursue all possible claims against . . . any
other responsible party for all damages relating to all payments made directly or indirectly
from AIA to the attorneys and law firm[ ] of
. . . Crumb & Munding . . . and any other law
firm (including for declaratory relief that no
further sums are owed by AIA to any of the
foregoing and that any fee agreements or

21a
conflict waivers are void), as such payments
should never have been made, were never authorized by AIA, were not properly incurred or
necessary for AIA, were never authorized by
AIA’s shareholders after full disclosure was
made, and involved the attorneys and law
firms taking action or performing work not in
the best interests of AIA and/or in violation of
the duty of loyalty owed to AIA. Demand is
further made to pursue all possible claims, including, without limitation, for the disgorgement of all fees, costs and expenses paid or
discharge of any debts allegedly owed, to any
of the foregoing attorneys, law firms, and/or
attorneys working at such law firms to the extent that they represented AIA based on conflicts of interest, breached fiduciary duties
(including the duty of loyalty), and malpractice. . . . In addition, demand is made to assert
all possible claims against the foregoing parties for participating and/or allowing AIA to
be improperly utilized to fund the defense and
prosecution of lawsuits which were not in
AIA’s best interests, but were instead pursued
based on the interests of the Controlling AIA
Defendants.
...
[p]ursue all possible claims against John
Munding and Crumb & Munding (or such
other firm Mr. Munding is operating through)
for malpractice, breach of fiduciary duties and
to disgorge all attorneys’ fees, costs and expenses paid to them directly or indirectly by
AIA for the California Lawsuit as Mr.

22a
Munding intentionally violated his duties
owed to AIA, including, without limitation, his
duties of loyalty owed to AIA and by taking
direction and action benefitting other defendants (including John’s) and placing their interests in front of AIA and by representing
CropUSA, AIA and other parties when there
were conflicts of interest in doing so and Mr.
Munding knew that he could not properly represent AIA’s interests and when he had no intention of doing so. Demand is further made
to pursue all possible claims against Mr.
Munding and Crumb & Munding for improperly failing to assert that the guarantees and
settlement agreements entered into by AIA
were not authorized and were thus illegal or
ultra-vires and by allowing AIA to enter into
them in the first place. Mr. Munding places his
interests in earning fees ahead of AIA’s interests.
...
[p]ursue all possible claims against . . . any
other parties identified above to recover any
attorneys’ fees and costs incurred in any lawsuit or litigation directly or indirectly involving AIA.
...
[t]o the extent that the conduct and claims
discussed above continues after this derivative demand, to pursue all possible claims
based on all future action based upon the
same or similar acts, omissions, conduct,
claims and damages.

23a
Id. at 42–43.
and, in a second demand:
[p]ursue all possible claims against . . . any
and all of the parties listed above [(including
John Munding, Crumb & Munding, or any law
firm Mr. Munding may be operating through)]
for concealing from AIA the facts, conflicts and
failing to disclose all necessary facts and
claims.
Id. at 44.
Defendants argue that it “is impossible to tell
what legal claims are contemplated by the demand letter.” ECF No. 19 at 7. The Court agrees that Plaintiff ’s
derivative demands, as replicated in Plaintiff ’s
amended complaint, do not sufficiently describe the
“suitable action” to satisfy notice under Idaho Code
§ 30-29-742, that Plaintiff demanded that the AIA Entities take action on their own behalf. Each and every
passage of the demand letters that Plaintiff included
in his amended complaint, ostensibly to show statutory
standing under Rule 23.1, states claims in terms of “all
possible claims” or similarly generic, conclusory, language, rather than describing with particularity the
claims for relief sought and the factual bases for those
claims as required by Rule 23.1’s pleading requirements. See Shenk v. Karmazin, 867 F.Supp.2d 379, 382
(S.D.N.Y. 2011) (interpreting Delaware law and Rule
23.1(b) to require a plaintiff to “state with particularity
how he has identified the wrongdoers, wrongful acts,
and harms on which he bases his demand for action.”).

24a
Plaintiff argues that United States Magistrate Judge
Candy Dale in the District of Idaho found “the same
demand letters” to be sufficient. ECF No. 23 at 8. However, there are insufficient allegations before this
Court to understand the context of what that lawsuit
entailed in comparison to the lawsuit here, and
whether Judge Dale addressed the same demand language as is at issue here.
Accordingly, Plaintiff ’s amended complaint fails to
provide specific information from which the Court can
conclude that Plaintiff has established statutory
standing under Rule 23.1.
Alignment
Subject matter jurisdiction may be challenged “at
any time,” either by the parties or by the court sua
sponte. Fed. R. Civ. P. 12(h)(3). For purposes of determining whether diversity of citizenship exists in a
shareholder derivative lawsuit, the general rule is that
a corporation is “properly realigned as a plaintiff since
it is the real party in interest” and stands to benefit
from the suit. Duffey v. Wheeler, 820 F.2d 1161, 1163
(11th Cir. 1987) (citing Koster v. (American) Lumbermans Mut. Casualty Co., 330 U.S. 518, 522–23 (1947));
see also Diaz v. Davis (In re Digimarc Corp. Derivative
Litig.), 549 F.3d 1223, 1234 (9th Cir. 2008).
However, a well-settled exception to the general
rule applies when a corporation is “in antagonistic
hands.” Koster, 330 U.S. at 523 (citing Doctor v. Harrington, 196 U.S. 579 (1905)). The Supreme Court has

25a
recognized that antagonism is present “whenever the
management is aligned against the stockholder and
defends a course of conduct which [the stockholder] attacks.” Smith v. Sperling, 354 U.S. 91, 95 (1957). “The
[complaint] and answer normally determine whether
the management is antagonistic to the stockholder.” Id.
at 96. To qualify as “antagonistic” the corporation must
do more than decline the remedies that the shareholder has demanded through his derivative demand.
See Diversity of citizenship, for purposes of federal
jurisdiction, in stockholders’ derivative action, 68
A.L.R.2d 824 at *9a (West Group 2005).
Just as Plaintiff ’s Rule 23.1 demand was insufficiently pleaded, Plaintiff ’s jurisdictional allegations
also fall short on the basis that they are conclusory and
fail to offer “sufficient factual matter, accepted as true,
to ‘state a claim to relief that is plausible on its face.”
Iqbal, 556 U.S. at 678. Plaintiff alleges only that the
“purported boards of directors” of the AIA Entities “refused to take action” as demanded in Plaintiff ’s derivative demand letters. ECF No. 10 at 45. Plaintiff failed
to point the Court to any authority supporting that declining to take the demanded action, alone, is enough
to establish the corporation as antagonistic. The extensive authority reviewed by the Court supports otherwise. See 68 A.L.R.2d 824 at *9a (collecting cases). The
Court finds that Plaintiff has not alleged sufficient factual matter to elucidate whether “‘management is
aligned against the stockholder and defends a course
of conduct which he attacks,’ Smith, 354 U.S. at 95, or
merely where ‘management—for good reasons or for

26a
bad—is definitely and distinctly opposed to the institution of [the derivative] litigation,’ Swanson [v. Traer
354 U.S. 114, 116 (1957)].” In re Digimarc Corp. Derivative Litig., 549 F.3d at 1235.
Plaintiff argues that diversity exists in this matter
regardless of how the corporation is aligned. See ECF
No. 23 at 10. However, a complaint that does not allege
with sufficient specificity information to determine
proper alignment is untenable. See Indianapolis v.
Chase National Bank, 314 U.S. 63, 69 (1941) (“Diversity jurisdiction cannot be conferred upon the federal
courts by the parties’ own determination of who are
plaintiffs and who defendants. It is our duty, as it is
that of the lower federal courts, to look beyond the
pleadings and arrange the parties according to their
sides in the dispute.”) (internal quotation omitted).
Therefore, the Court finds that Plaintiff ’s allegations
are insufficient to determine proper alignment as a
matter of law and to establish jurisdiction. Pride, 719
F.3d at 1133.
Subject matter jurisdiction is a threshold issue.
See Sinochem Int’l Co. v. Malay. Int’l Shipping Corp.,
549 U.S. 422, 430 (2007) (observing that “a federal
court generally may not rule on the merits of a case
without first determining that it has jurisdiction over
the category of claim in suit (subject-matter jurisdiction) and the parties (personal jurisdiction).”). Although the Court has serious concerns going to the
merits of Plaintiff ’s claims, particularly whether the
legal malpractice claim can survive the challenge of an
expired statute of limitation or whether the legal

27a
malpractice claim is subject to the Washington Consumer Protection Act, the Court does not reach the numerous other arguments raised by Defendants in their
motion to dismiss because Plaintiff has not established
subject matter jurisdiction.
At this stage, having determined that subject matter jurisdiction has not been established, dismissal
without prejudice is appropriate. If this case is refiled,
the Court encourages the parties to submit any future
dispositive motions in a summary judgment posture
unless the parties intend for the Court’s examination
to rely solely on the complaint. See Fed. R. Civ. P. 56
and LCivR 56. In addition, the parties are instructed
to refile any documents that they want the Court to
consider in connection with any newly filed motion and
not refer the Court to documents filed with dispositive
motions that the Court previously resolved.
Accordingly, IT IS HEREBY ORDERED:
1. Plaintiff ’s Motion to Strike, ECF No. 22, is
GRANTED IN PART, DENIED IN PART, and DENIED AS MOOT IN REMAINING PART. The Court
strikes and does not consider the declaration and exhibits that the Munding Defendants submitted in support of the motion to dismiss. ECF No. 20. However, the
Court does not find a basis to strike portions of Defendant’s motion to dismiss. ECF No. 19. The remaining
documents that Plaintiff seeks to strike were submitted in response to Defendants’ first motion to dismiss
Plaintiff ’s original complaint, which the Court denied
as moot after Plaintiff filed the amended complaint,

28a
and therefore are not part of the current record. See
ECF Nos. 8, 9, and 26.
2. Although the Court is not striking any portions of Defendants’ motion to dismiss for failing to
abide by the Local Rules, all counsel are directed to
adhere to the mandates of the Local Civil Rules and
the Federal Rules of Civil Procedure.
3. The Munding Defendants’ Motion to Dismiss,
ECF No. 19, is GRANTED IN PART and DENIED
IN PART. Plaintiff ’s claims are dismissed without
prejudice for insufficient pleading regarding federal
jurisdiction and statutory standing to raise derivative
claims.
IT IS SO ORDERED. The District Court Clerk
is directed to enter this Order and provide copies to
counsel, and close this case.
DATED March 28, 2019.
s/ Rosanna Malouf Peterson
ROSANNA MALOUF PETERSON
United States District Judge

